     DEPARTMENT OF HEALTH & HUMAN SERVICES                              OFFICE OF INSPECTOR GENERAL


                                                                         Office of Audit Services, Region IV
                                                                         61 Forsyth Street, SW, Suite 3T41
                                                                         Atlanta, GA 30303
August 4, 2011

Report Number: A-04-10-07017

Mr. Michael A. Seltzer,
Chief Executive Officer
Florida Medicare and Medicaid Products
Humana, Inc.
3501 SW 160 Avenue
Miramar, FL 33027

Dear Mr. Seltzer:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled, Review of Humana, Inc., Preferred Provider Organization
Controls Over Durable Medical Equipment Suppliers in Florida. We will forward a copy of this
report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-04-10-07017 in all correspondence.

                                             Sincerely,



                                             /John T. Drake, Sr./
                                             Acting Regional Inspector General
                                               for Audit Services

Enclosure


HHS Action Official:

Timothy B. Hill, Deputy Director
Centers for Drug and Health Plan Choice (CPC)
Centers for Medicare & Medicaid Services
Mail Stop C5-19-16
7500 Security Boulevard
Baltimore, MD 21244-1850
 Department of Health & Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





    REVIEW OF HUMANA, INC.,

PREFERRED PROVIDER ORGANIZATION 

CONTROLS OVER DURABLE MEDICAL 

 EQUIPMENT SUPPLIERS IN FLORIDA 





                       Daniel R. Levinson

                        Inspector General 


                          August 2011 

                         A-04-10-07017 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                                               INTRODUCTION

BACKGROUND

Medicare Advantage Program

The Balanced Budget Act of 1997, P.L. No. 105-33, established Medicare Part C to offer
beneficiaries managed care options through the Medicare+Choice program. Section 201 of the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
revised Medicare Part C and renamed the program the Medicare Advantage (MA) program.
Organizations that participate in the MA program include health maintenance organizations,
preferred provider organizations, provider-sponsored organizations, and private fee-for-service
plans. The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
program, makes monthly capitated payments to MA organizations for beneficiaries enrolled in
the organizations’ health care plans.

MA organizations must enter into a contract with CMS to enroll and provide all Medicare-
covered services to Medicare beneficiaries. As a condition of the contract, the MA organization
must have a compliance plan, which must include measures to detect, correct, and prevent fraud,
waste, and abuse. Among other requirements, the compliance plan shall also include written
policies, procedures, and standards of conduct that articulate the organization’s commitment to
comply with all applicable Federal and State standards.1

Integrity of Durable Medical Equipment Suppliers

Although the vast majority of health care providers and suppliers are honest and well-
intentioned, the large Federal Government expenditures on the Medicare program attract certain
individuals and entities that seek to exploit the health care system for their own financial gain.
Ensuring the integrity of the program’s provider and supplier enrollment processes is an integral
part of preventing exploitation of the system. Therefore, it is imperative that MA organizations
use rigorous enrollment standards and screening processes when contracting with providers and
suppliers.

Actively protecting the Medicare program and its beneficiaries from unqualified, fraudulent, or
abusive providers and suppliers is more efficient and effective than trying to recover payments or
redress fraud or abuse after it occurs. Ensuring adequate and appropriate provider and supplier
enrollment standards and screening is an essential first step in strengthening the integrity of the
Medicare program.




                                                            
1
    42 CFR § 422.503 (a)4(vi).


                                                                    1 
 
Durable Medical Equipment

Medicare pays for the purchase, rental, and maintenance of new and used durable medical
equipment (DME) that is prescribed by a physician2 and delivered to Medicare beneficiaries.
DME is equipment that can withstand repeated use, is primarily and customarily used to serve a
medical purpose, is not generally useful to an individual in the absence of an illness or injury,
and is appropriate for use in the home or an institution that qualifies as a home.

DME is part of the traditional Medicare-covered services that MA plans must provide. MA
plans generally contract with DME suppliers to provide the services. Medicare Preferred
Provider Organization (PPO) plans give Medicare beneficiaries the option to choose which DME
suppliers, physicians, and hospitals to visit. Beneficiaries are responsible for service copayments
to health care providers.

Humana Preferred Provider Organization Plans in Florida

Humana, Inc., (Humana) headquartered in Louisville, Kentucky, is one of the nation’s largest
publicly traded health and supplemental benefits companies, reporting over 10 million medical
members nationwide, including nearly 4 million Medicare members in 2009. With offices in
Miramar, Florida, Humana offers HumanaChoice PPO plans to Florida’s Medicare beneficiaries
under CMS contract numbers R5826 and H5415.

DME services are part of Humana’s PPO health care plans. Humana PPO plans gave Medicare
managed care beneficiaries the flexibility to either receive DME services within its PPO network
of health care providers or choose providers with no contractual arrangements with Humana, as
long as those providers accepted Humana’s payment terms. In addition to paying DME service
copayments, beneficiaries were responsible for the full cost of DME services if out-of-network
providers did not accept Humana’s payment amounts.

Humana’s compliance plan was intended to promote appropriate and efficient use of health care
services and to increase understanding of compliance and fraud prevention. The plan outlined a
set of guidelines to comply with Federal and State regulations. Humana’s Special Investigation
Unit was responsible for the detection, correction, and prevention of health insurance waste and
abuse in an effort to facilitate proper business practices and preserve reasonable premium rates.
Humana required compliance not only for the company and its employees but also for all
contracted providers, suppliers, and vendors providing services to its plan members.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Humana had established controls to ensure that DME
services were adequately supported and that beneficiaries received the DME paid for through its
PPO plans in Florida.

                                                            
2
    Section 1834 (a)(1)(E)(ii) of the Social Security Act.

                                                               2 
 
Scope

Our audit covered 48,671 DME claim lines totaling $3,468,912 that Humana paid to DME
suppliers for items and services provided to its PPO members in Florida during calendar year
(CY) 2009. Our review included Humana’s controls over DME services provided through
various suppliers.

We did not assess Humana’s overall internal controls for administering Florida’s PPO plans.
Rather, we limited our review to gaining an understanding of those significant controls Humana
had implemented to monitor DME suppliers and assure the medical need and the delivery of
services to PPO plan members.

We conducted our fieldwork at Humana’s offices in Miramar, Florida, and at various DME
suppliers throughout Florida.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations, and guidance;

       held discussions with Humana officials to identify procedures to monitor DME services;

       reviewed documentation provided by Humana, including DME delivery methodology,
        policies, procedures, and controls applicable to DME services, marketing information
        available to the public, suppliers’ contracts, payment terms, and Humana’s compliance
        plan;

       obtained DME claims data from Humana’s PPO plan database consisting of 48,671 claim
        lines totaling $3,468,912 paid during CY 2009;

       selected a stratified random sample of 100 claim lines from 11,074 claim lines and
        analyzed them by:

           o verifying the physical existence of the DME suppliers’ offices;

           o reviewing DME files maintained at the suppliers’ offices to determine whether
             (1) the files included the appropriate supporting documentation (e.g., the name of
             the DME supplier, the name of the PPO member, the DME item, etc.); (2) the
             DME was ordered by a physician and the medical need for DME services was
             documented by a prescription; and (3) the DME deliveries were acknowledged by
             PPO plan members or their caretakers; and

           o assessing Humana’s controls to ensure that the DME claim lines were adequately
             supported and that beneficiaries received the DME paid for through its PPO plans
             in Florida; and

                                                3 
 
      determined that it was not necessary to estimate our results to our sampling frame
       because our review of internal controls and our substantive testing disclosed no control
       weaknesses or improper payments.

The Appendix contains details on our sample design and methodology.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

Humana had established controls to ensure that DME services were adequately supported and
that beneficiaries received the DME paid for through its PPO plans in Florida during calendar
year 2009. Therefore, we do not offer any recommendations.




                                                4 
APPENDIX
                                                                                     Page 1 of 2


                 APPENDIX: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was all Durable Medical Equipment (DME) claim lines paid by Humana to DME
suppliers, for services to its Medicare Advantage Preferred Provider Organization (PPO) plan
members, during calendar year 2009.

SAMPLING FRAME

We obtained from Humana 48,671 claim lines totaling $3,468,912 from its paid claims files.
From this population, we eliminated all claim lines: under $10, paid to national pharmacy
chains, paid to DME suppliers with service addresses outside of Florida, and paid to DME
suppliers in Florida cities with fewer than five suppliers. The resulting sampling frame was
11,074 unique DME claim lines totaling $1,048,415.

SAMPLE UNIT

The sample unit was an individual claim line for DME supplies paid by Humana to DME
suppliers for items and services provided to Humana’s PPO members.

SAMPLE DESIGN

We used a stratified random sample. We stratified the sampling frame into two strata: (1) DME
claim lines paid to Humana’s participating/contracted DME suppliers and (2) DME claim lines
paid to Humana’s non-participating/non-contracted DME suppliers.


     Stratum                Description            No. of Line Items           Amount
        1          Participating Suppliers                      8,632              $796,015
        2          Non- Participating Suppliers                 2,442               252,400
                   Total                                      11,074             $1,048,415

SAMPLE SIZE

We selected a sample of 100 claim lines consisting of 50 claim lines per stratum.

SOURCE OF THE RANDOM NUMBERS

A Region IV statistical specialist generated the random numbers using the Office of Inspector
General, Office of Audit Services (OIG/OAS) statistical software, RAT-STATS 2010 Random
Number Generator.
                                                                                 Page 2 of 2


METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the DME line items from 1 to 8,632 in stratum 1 and from 1 to
2,442 in stratum 2. After generating 50 random numbers per stratum, we selected the
corresponding frame items.
